No. 20-843

In the Supreme Court of the United States
NEW YORK STATE RIFLE & PISTOL ASSOCIATION, INC.,
ET AL.,
Petitioners,
v.
KEVIN P. BRUEN, IN HIS OFFICIAL CAPACITY AS
SUPERINTENDENT OF NEW YORK STATE POLICE, ET AL.,
Respondents.
CERTIFICATE OF COMPLIANCE
I, Nicole A. Saharsky, counsel for Amici Curiae the Educational Fund to Stop
Gun Violence and 35 Other Organizations and Individuals and a member of the Bar
of this Court, certify pursuant to Rule 33.1(h) of the Rules of this Court that this
Brief for Amici Curiae the Educational Fund to Stop Gun Violence and 35 Other
Organizations and Individuals contains 7,745 words, excluding the parts of the brief
that are exempted by Rule 33.1(d).

Sincerely,

Nicole A. Saharsky

